Department of Homeland Security
   Ofﬁce of Inspector General

             U.S. Citizenship and Immigration 
 

            Services’ Management Letter for FY 
 

             2010 DHS Consolidated Financial 
 

                      Statements Audit
 





OIG-11-63                                            March 2011
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                              Homeland
                                                              Security
                                            MAR 28 2011

                                              Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the U.S. Citizenship and Immigration Services' Management Letter
for FY 2010 DHS Consolidated Financia1.Statements Audit. It contains observations
related to internal control that were not required to be reported in the financial statements
audit report. The independent public accounting firm KPMG LLP (KPMG) performed
the integrated audit ofDHS' FY 2010 financial statements and internal control over
financial reporting and prepared this management letter. KPMG is responsible for the
attached management letter dated March 3, 2011, and the conclusions expressed in it.
We do not express opinions on DHS' financial statements or internal control, or provide
conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.



                                          Anne L. Richards
                                          Assistant Inspector General for Audits
                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036-3389




March 3, 2011

Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security U.S. Citizenship and Immigration Services
Washington, DC

Ladies and Gentlemen:

We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS
or Department) as of September 30, 2010 and the related statement of custodial activity for the
year then ended (referred to herein as “financial statements”). We were also engaged to examine
the Department’s internal control over financial reporting of the balance sheet as of September 30,
2010, and the statement of custodial activity for the year then ended. We were not engaged to
audit the accompanying statements of net cost, changes in net position, and budgetary resources
for the year ended September 30, 2010 (referred to herein as other fiscal year (FY) 2010 financial
statements), or to examine internal control over financial reporting over the other FY 2010
financial statements.

Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion
on the FY 2010 financial statements and we were unable to perform procedures necessary to form
an opinion on DHS’ internal control over financial reporting of the balance sheet as of September
30, 2010 and the related statement of custodial activity for the year then ended. U.S. Citizenship
and Immigration Services (USCIS) is a component of DHS. We noted certain matters involving
internal control and other operational matters, related to USCIS that are summarized in the Table
of Financial Management Comments on the following pages, and presented for your
consideration in Section I of this letter. These comments and recommendations, all of which have
been discussed with the appropriate members of management, are intended to improve internal
control or result in other operating efficiencies. These comments are in addition to the significant
deficiencies presented in our Independent Auditors’ Report, dated November 12, 2010, included
in the FY 2010 DHS Annual Financial Report. A description of each internal control finding, not
related to information technology, and its disposition as either a significant deficiency or a
financial management comment is provided in Appendix A. Our findings related to information
technology systems security have been presented in a separate letter to the Office of Inspector
General and the USCIS Chief Financial Officer and Chief Information Officer.

As described above, the scope of our work was not sufficient to express an opinion on the balance
sheet as of September 30, 2010 or the statement of custodial activity of DHS for the year then
ended, and we were not engaged to audit the statements of net cost, changes in net position, and
budgetary resources for the year ended September 30, 2010. Accordingly, other internal control
matters may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on the FY 2010 financial statements and had we been engaged to
audit the other FY 2010 financial statements. We aim, however, to use our knowledge of DHS’
organization gained during our work to make comments and suggestions that we hope will be
useful to you.


                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
USCIS’s written response to our comments and recommendations has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS’ and USCIS’s management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,
                              U.S. Citizenship and Immigration Services
                              Table of Financial Management Comments
                                         September 30, 2010

              TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                                                Page(s)

FMC 10-01   Inadequate and/or Inconsistent Supervisory Review of Payroll Transactions                2
FMC 10-02   Inadequate and/or Inconsistent Supervisory Review of Journal Entries                     2
FMC 10-03   Improper Expensing of Capitalized Equipment                                              2
FMC 10-04   Deficiencies in the Deferred Revenue Quality Assurance Process and the Internal          3
            Control Environment
FMC 10-05   Inadequate Supervisory Review of the Intra-Departmental Eliminations Reconciliation      4
FMC 10-06   Untimely Capitalization of Leasehold Improvement Costs                                   4
FMC 10-07   Inadequate and/or Inconsistent Supervisory Review of Personnel Actions                   5


                                             APPENDIX
Appendix    Subject                                                                               Page(s)

    A       Crosswalk – Financial Management Comments to Active NFRs                                6
    B       Status of Prior Year NFRs                                                               7
    C       Management Response                                                                     8




                                                     1
 

                                                                                            Section I
                             U.S. Citizenship and Immigration Services
                                 Financial Management Comments
                                        September 30, 2010


FMC 10-01 – Inadequate and/or Inconsistent Supervisory Review of Payroll Transactions (NFR
No. USCIS 10-01)

      We tested internal controls over human resources functions at USCIS by selecting a random
      sample of 45 employees receiving payroll checks in pay periods from October 1, 2009 – June 30,
      2010. For each employee/ pay period selected, we requested the System Time and Attendance
      Reporting (STAR) Report, timesheet and relevant documentation supporting the timesheet
      (including requests for overtime/ leave, etc.). We noted the following:
      �	 Two instances in which a timesheet was submitted; however, no supervisor approval was
          evident.
      �	 One instance, related to one of the timesheets noted above, in which leave hours were
          recorded on the timesheet, however no authorization was evident.

      Recommendations:
      We recommend that USCIS:
      �	 Provide employees, timekeepers and supervisors with additional training, resources and tools
         to increase their knowledge of the timekeeping process and the importance of ensuring that
         each step in the process must be accomplished accurately and timely.
      �	 Request that timekeepers conduct monthly self-audits to assure time keeping documents are
         accurate and complete.

FMC 10-02 – Inadequate and/or Inconsistent Supervisory Review of Journal Entries (JEs) (NFR
No. USCIS 10-02)

       We judgmentally selected a sample of 45 JEs posted from October 1, 2009 – June 30, 2010. For
       each JE selected, KPMG obtained the General Journal Header Information sheet and relevant
       documentation supporting the amounts posted. We noted that one of the JE tested did not have
       evidence of approval indicated by initials on the General Journal Header Information sheet.
       However, we verified that the JE was approved in the Federal Financial Management System
       (FFMS).

       Recommendation:
       We recommend that USCIS remind senior accountants, responsible for reviewing and approving
       free-form JEs, of the control requirements to document the approval of entry both in FFMS and
       by initialing the General Journal Header Information Sheet.

FMC 10-03 – Improper Expensing of Capitalized Equipment (NFR No. USCIS 10-03)

       During our interim disbursements test work as of May 31, 2010, we noted that six equipment
       items in the amount of $693,000 were improperly expensed.

       Recommendation:
       We recommend that the USCIS Office of Administration and the Office of the Chief Financial
       Officer coordinate with the Office of the Chief Information Officer and the USCIS Contracting
       Office to establish policies and internal controls that will ensure that capitalized property
       transactions are accurately tracked and recorded in the Asset Management System as well as
       FFMS.



                                                 2

                                                                                                  Section I
                               U.S. Citizenship and Immigration Services
                                   Financial Management Comments
                                          September 30, 2010



FMC 10-04 – Deficiencies in the Deferred Revenue Quality Assurance Process and the Internal
Control Environment (NFR No. USCIS 10-04)

       We conducted site visits at various District Offices, Service Centers and the National Benefits
       Center (NBC) in May 2010 (floor-to-list testing). We noted that the California Service Center
       selected a sample of files from C3 data to conduct the file review; this is a list-to-floor procedure
       and is not compliant with the floor-to-list operating procedures established by the Quality
       Management Branch (QMB).

      KPMG replicated management’s floor-to-list testing of 680 applications for the third quarter of
      fiscal year (FY) 2010 and noted the following:
      �	 Error rates indicative of a deficiency in internal control in the application adjudication process
          are identified through the USCIS quality assurance (QA) process and exist on USCIS’s largest
          application tracking systems: CLAIMS 3 and CLAIMS 4.
      �	 The deferred revenue QA process identifies discrepancies in the status of applications where
          errors between the system data and the hard copy application exist. Although consideration of
          the faulty data is included in the calculation of deferred revenue, the inclusion of faulty data
          presents an environment where the conditions in this NFR would be present in subsequent QA
          testing.
      �	 USCIS continues to utilize multiple, non-integrated systems for processing immigration and
          naturalization applications.
      �	 There were 23 instances where USCIS sample results differed from our results. We identified
          twenty overstatement errors and three understatement errors that were not identified by
          USCIS. The overstatements represented items that were listed as pending however we
          determined that they were adjudicated (or administratively closed) prior to May 20, 2010 and
          therefore should have been included in the error rate. The understatements identified
          represented items that were listed as not pending and were improperly included in the error
          rate as we noted that they were not adjudicated prior to May 20, 2010

      Recommendations:
      We recommend that USCIS:
      �	 Identify system-wide errors in application status and administratively close applications that
         should no longer be considered pending.
      �	 Establish agency-wide criteria, operating controls, and oversight for the timely update of
         application status in case tracking systems, CLAIMS 3, CLAIMS 4, and the Marriage Fraud
         Assessment System (MFAS).
      �	 Centralize the review of the quarterly QA results reported by field offices and service centers
         prior to the use of the results in the determination of error rates.




                                                    3
 

                                                                                                Section I
                              U.S. Citizenship and Immigration Services
                                  Financial Management Comments
                                         September 30, 2010


FMC 10-05 – Inadequate Supervisory Review of the Intra-Departmental Eliminations
Reconciliation (NFR No. USCIS 10-05)

      We identified the following discrepancies during our review of the September intra-departmental
      reconciliation:
      �	 The relationship thresholds reported for Federal Law Enforcement Training Center (FLETC)
         and U.S. Immigration and Customs Enforcement (ICE) on the Unadjusted Treasury
         Information Executive Repository (TIER) USCIS Eliminations Worksheet do not agree to the
         materiality threshold provided by DHS Office of Financial Management (OFM).
      �	 The Adjusted TIER USCIS Eliminations Worksheet is mathematically incorrect due to
         incorrect formulas in the excel spreadsheet for various “total” amounts relating to
         Management Directorate (MGT), Customs and Border Protection (CBP), National Protection
         and Programs Directorate (NPPD), FLETC and ICE trading partner balances.

       As a result of our review, USCIS revised the Eliminations Reconciliation several times. We noted
       that despite the mathematical inaccuracies, the eliminating entries were properly prepared and the
       correct overall balances were reported on the Trading Partner Reconciliation Analysis Checklist.
       USCIS used individual line items as opposed to the “total” amounts reported on the worksheet to
       prepare the checklist, and as a result the balances were not misstated.

      Recommendations:
      We recommend that USCIS:
      �	 Revise the summary worksheet to highlight the unadjusted and adjusted reconciliation
         differences, the change from unadjusted to adjusted differences, and compliance with the
         materiality threshold.
      �	 Implement policies to ensure managers review the presentation of the summary worksheet to
         ensure that they understand the information presented.
      �	 Revise standard operating procedures to reflect that eliminations adjustments are developed as
         a result of the review of difference balances per category as indicated by the initial TIER
         Eliminations Report and are not based on the summary schedule used for management review.

FMC 10-06 – Untimely Capitalization of Leasehold Improvement Costs (NFR No. USCIS 10-06)

       As a result of a review of leasehold improvement projects, USCIS recorded $10.7 million in prior
       period adjustments to the leasehold improvements balance in the 2nd quarter of FY 2010.

       Recommendation:
       We recommend that USCIS continues to follow their current procedures for capitalization of
       leasehold improvement projects, and ensure that costs are capitalized in the proper accounting
       period.




                                                   4
 

                                                                                               Section I
                              U.S. Citizenship and Immigration Services
                                  Financial Management Comments
                                         September 30, 2010


FMC 10-07 – Inadequate and/or Inconsistent Supervisory Review of Personnel Actions (NFR No.
USCIS 10-07)

      We tested internal controls over the review and approval of a sample of 45 SF-52s as of
      September 30, 2010 and found 16 instances where a funding official did not approve the SF-52.
      We noted that there was no sign-off on the SF-52 by the authorizing official to evidence that a
      USCIS employee properly reviewed the SF-52 and verified that sufficient funding was available
      for the position.

       Recommendation:
       We recommend that the USCIS Office of Human Capital and Training establish procedures to
       ensure that the requestor, authorizer and funding manager sign recruitment SF-52s. The routing of
       SF-52s in the payroll system should be changed to ensure the SF-52s are routed through the
       funding manager; thereby ensuring there are three signatures on each recruitment SF-52.




                                                  5
 

                                                                                                                Appendix A
                                   U.S. Citizenship and Immigration Services
                              Crosswalk - Financial Management Comments to NFRs
                                               September 30, 2010


                                                                                                    Disposition1
                                                                                                    IAR             FMC
     NFR No.                                    Description                                  MW       SD     NC      No.
                  Inadequate and/or Inconsistent Supervisory Review of Payroll
                                                                                                                    10-01
       10-01      Transactions
                  Inadequate and/or Inconsistent Supervisory Review of General Journal
       10-02                                                                                                        10-02
                  Entries
       10-03      Improper Expensing of Capitalized Equipment                                                       10-03
                  Deficiencies in the Deferred Revenue Quality Assurance Process and the
       10-04                                                                                                        10-04
                  Internal Control Environment
                  Inadequate Supervisory Review of the Intra-Departmental Eliminations
       10-05                                                                                                        10-05
                  Reconciliation
       10-06      Untimely Capitalization of Leasehold Improvement Costs                                            10-06
       10-07      Inadequate and/or Inconsistent Supervisory Review of Personnel Actions                            10-07


1
 Disposition Legend:
IAR	 	     Independent Auditors’ Report dated November 12, 2010
FMC	 	 Financial Management Comment
MW	 	      Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Noncompliance with laws,regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	 	     Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A	 	      Financial Management and Reporting
B	 	      Information Technology Controlsand System Functionality
C	 	      Fund Balance with Treasury
D	 	      Property, Plant, and Equipment
E	 	      Actuarial and Other Liabilities
F	 	      Budgetary Accounting
G	 	      Other Entity-Level Controls
H	 	       Custodial Revenue and Drawback
I	 	      Federal Managers’ Financial Integrity Act of 1982 (FMFIA), and Laws and Regulations Supporting OMB Circular
          No. A-50, Audit Followup, as revised
J	 	      Federal Financial Management Improvement Act of 1996 (FFMIA)
K	 	      Single Audit Act Amendments of 1996
L	 	      Chief Financial Officers Act of 1990 (CFO Act)
M	 	      Antideficiency Act, as amended (ADA)
N	 	      Government Performance and Results Act of 1993 (GPRA)




                                                              6
 

                                                                                                           Appendix B
                                   U.S. Citizenship and Immigration Services
                                           Status of Prior Year NFRs
                                              September 30, 2010


                                                                                                Disposition1
                                                                                                        Repeat
       NFR No.                                Description                                Closed2
                                                                                                    (2010 NFR No.)
        09-01      Number not used                                                             Not applicable
        09-02      Number not used                                                             Not applicable
        09-03      Number not used                                                             Not applicable
                   Untimely Update of Adjudication Status within CLAIMS 3 and
        09-04                                                                              X
                   CLAIMS 4
        09-05      Applications Included in Deferred Revenue at Incorrect Fee Amounts      X
                   Obligations are Not Being Recorded in Federal Financial
        09-06                                                                              X
                   Management System (FFMS) in a Timely Manner
                   Discrepancies with the Leave Balances Between the National Finance
        09-07      Center Records and System Time and Attendance Reporting Reports         X
                   are not Being Researched and Resolved Timely
        09-08      Number not used                                                             Not applicable
        09-09      Number not used                                                             Not applicable
        09-10      Number not used                                                             Not applicable
        09-11      Number not used                                                             Not applicable
        09-12      Inadequate Internal Controls over the Reporting of Fixed Assets         X
                   Deficiencies in the Deferred Revenue Quality Assurance Process and
        09-13                                                                                        USCIS 10-04
                   the Internal Control Environment
                   Inadequate and/or Inconsistent Supervisory Review of Payroll
        09-14                                                                                        USCIS 10-01
                   Transactions
        09-15      Number not used                                                             Not applicable
                   Issues Involving the Completeness, Existence and Accuracy of
        09-16                                                                              X
                   Capitalized Equipment
                   USCIS is Improperly Including Executive Office for Immigration
        09-17      Review/‘Relief From Deportation’ Applications in the Deferred           X
                   Revenue Query Results
                   Compliance with Office of Management and Budget Guidance for
        09-18                                                                              X
                   Thrift Savings Plan Deductions
        09-19      Accounts Payable Transactions are Not Being Recorded in FFMS            X
                   Inadequate and/or Inconsistent Supervisor Review of Personnel
        09-20                                                                                        USCIS 10-07
                   Actions
                   Aged Obligations are not Timely Reviewed to Ensure the Validity and
        09-21                                                                              X
                   Accuracy of the Undelivered Orders balance
        09-22      Insufficient Support for the Determination of Parking Withholdings      X
        09-23      Disbursements are Being Charged to an Improper Sub-object Class         X

1
  KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and
for the year ended September 30, 2010, and was not engaged to perform an audit over the statement of net cost,
statement of changes in net position, and statement of budgetary resources for the year ended September 30, 2010.
In addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies
reported in KPMG’s Independent Auditors’ Report dated November 13, 2009.
2
 NFRs were closed either through remediation of the findings or that we were not engaged to follow up on active
NFRs that did not support significant deficiencies reported in KPMG’s Independent Auditors’ Report dated
November 13, 2009.




                                                            7
 

                                                                                                                          Appendix C
                             U.S. Citizenship and Immigration Services
 

                                     Management Response to the
 

                                        Management Letter
 





                                                                                           u.s. Citizenship
                                                                                           and ImmigratIon
                                                                                           Servic




Marl,;h 1 20 II


Memorandum
10                Anne J Ridldfd
                  As:-.istanllnspcctor LJC1lL'rall;'f Audit"
                  l S. Department of HomelJnd St'l,:urit)


FRUM               fimHhy A. Rosad
                  I S { itizcn.<,;hil' nrid-l-mTTiigration Ser\'l..;i.·..,
                  Acting Chier Financial Officer


Sl BJlt'1         Managcmt:nl Response to L .;.,. CitiZl,.'llShip .md hmmt-r311011 '")lrH';<::.:.
                  Mana/;!cllll'nt LL.1:H:r for FY 2010 DHS Lonsolidntl.-d FlOan":J31 Statement. \udu

We would like to thank you for (he opportunity to review and                 OOtnrnl:ll\   on the draft report; I ,
Citi:en.."hir and Immi,l',r, I,'i In Mn'iCts' J/ullugement l.eUc!r JI ,r FY :0/0 DUS Consolidllltd
Financial S/alemc:nt Audil. "he United Stall.os Citizenship and Irnmigral1PIl                 ::».,-\ tLt.'~ (L:SClS)
ooncurs with the draft repon as pnosl.-ntoo.
                                  .

We arc committed to resolving all control deficiencies and wcakn<:.',,~t.; idcnuticd ill thl' audit ""lid
have prepared Mission AL:th ,n Plans II) rcc oh I:' and irnpnlvc OUf inlt.:mal rontrol. \ \ t.: t ~ ( 'J...,
financial inj1mnation

V. e appn..-ciate the coorcralilln and n.':o.llect that :1)t1f "tatl pr'l idtXJ during till.: \,;ullr,,\.: If tht: nuda
and I\~ .1-,. fM\\aro to
                       oJOtinulI1g our str{)n~ 'v1rkIn!; n:b.ll{,n I'll' \\ ith }l)ur IJtlkl'




                                                             8
 

Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
